           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    ADMINISTRATIVE COSTS CLAIMED
    BY THE NEW MEXICO DISABILITY
      DETERMINATION SERVICES

   September 2008      A-06-08-18034




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      September 29, 2008                                                           Refer To:

To:        Ramona J. Schuenemeyer
           Regional Commissioner
            Dallas

From:      Inspector General

Subject:   Administrative Costs Claimed by the New Mexico Disability Determination Services
           (A-06-08-18034)


           OBJECTIVE
           The objectives of our audit were to evaluate the New Mexico Disability Determination
           Services’ (NM-DDS) internal controls over the accounting and reporting of
           administrative costs, determine whether costs claimed were allowable and properly
           allocated and funds were properly drawn, and assess limited areas of the general
           security controls environment. Our audit included the administrative costs claimed by
           NM-DDS during Federal Fiscal Years (FFY) 2005 and 2006.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for the
           development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are performed by disability determination
           services (DDS) in each State, Puerto Rico, and the District of Columbia in accordance
           with Federal regulations. 1 In carrying out its obligation, each DDS is responsible for
           determining claimants’ disabilities and ensuring adequate evidence is available to
           support its determinations. To assist in making proper disability determinations, each




           1
               20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 - Ramona J. Schuenemeyer


DDS is authorized to purchase medical examinations, X-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources. 2

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments (ASAP) system to
pay for program expenditures. Funds drawn down must comply with Federal
regulations 3 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 4 For FFYs 2005 and 2006, the
authorized funding was $11,660,853 and $12,267,739, respectively.

Reimbursement for costs under the program must comply with Office of Management
and Budget (OMB) Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments. At the end of each quarter of the fiscal year, each DDS submits a State
Agency Report of Obligations for SSA Disability Programs (Form SSA-4513) to account
for program disbursements and unliquidated obligations. 5 The Form SSA-4513 reports
expenditures and unliquidated obligations for Personnel Service Costs, Medical Costs,
Indirect Costs, and All Other Nonpersonnel Costs.

The New Mexico Division of Vocational Rehabilitation (NM-DVR) is NM-DDS’ parent
agency. NM-DVR is located in Santa Fe, New Mexico, and NM-DDS is located in
Albuquerque, New Mexico. NM-DVR is responsible for the draw down of SSA funds to
pay expenses of NM-DDS. Additionally, NM-DVR distributes indirect costs to NM-DDS
resulting from the application of an indirect cost rate that is approved by the Department
of Education.

RESULTS OF REVIEW
For FFY 2006, NM-DVR could not provide detailed accounting records to support
approximately 15 percent of the DDS' administrative costs, which prevented us from
identifying and selecting a valid statistical sample of transactions for detailed review. As
a result, we could not determine whether disbursements NM-DDS charged for FFY
2006 were allowable and properly allocated.

Our review of FFY 2005 data showed that disbursements charged to SSA for that year
were generally allowable and allocable. NM-DVR made unsupported adjustments to

2
    20 C.F.R. §§ 404.1624, 416.1024.
3
    31 C.F.R. § 205.1 et seq.
4
    Public Law No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501 and 6503.
5
  SSA, Program Operations Manual System (POMS), DI 39506.201 and 202. POMS, DI 39506.200 B.4
provides, in part, that “Unliquidated obligations represent obligations for which payment has not yet been
made. Unpaid obligations are considered unliquidated whether or not the goods or services have been
received.”
Page 3 - Ramona J. Schuenemeyer


move funds from one FFY to another based on the Form SSA-4513 reports submitted to
the Dallas Regional Office. Also, NM-DDS could not provide documentation that
indicated the Dallas Regional Office provided prior approval for DDS employee travel,
when required. We also identified weaknesses in the general security controls at
NM-DDS.

FFY 2006 ACCOUNTING RECORDS

SSA requires that State agencies retain financial records and supporting documentation
until a Federal audit has been performed and all findings have been resolved. 6
However, for FFY 2006, NM-DVR could not provide detailed accounting records to
support approximately 15 percent of the DDS’ administrative costs claimed on the Form
SSA-4513. As a result, we could not select a valid statistical sample of transactions
from which to audit costs for FFY 2006 and verify or reconcile disbursements.
Consequently, we could not determine whether FFY 2006 costs claimed by the DDS
were allowable and properly allocated. NM-DDS stated that the July 2006
implementation of a new accounting system prevented either NM-DDS or NM-DVR from
providing detailed accounting transactions that could be reconciled to amounts claimed
on Form SSA 4513.

We compared NM-DDS administrative costs charged in FFY 2005 with amounts
charged in FFY 2006. Based solely on this comparison, administrative costs charged in
FFY 2006 appeared reasonable. However, this does not relieve the NM-DDS of the
responsibility to retain complete financial records that account for administrative costs
charged to SSA. While we understand that implementation of a new accounting system
can present challenges, SSA must have assurance that administrative costs paid during
the transition period are allowable and properly allocated.

FFY 2005 ACCOUNTING RECORDS

Administrative costs charged to SSA during FFY 2005 were generally allowable and
allocable. However, during our review, we identified two discrepancies involving cash
management and DDS employee out-of-State travel.

Cash Management

NM-DVR made unsupported accounting adjustments to move funds from one FFY to
another. To remedy differences between reported and actual amounts in the
accounting records, NM-DVR made at least three unsupported ASAP adjustments
affecting FFY 2005 appropriations.




6
    SSA, POMS, DI 39509.005 C.1.b, State Agency Responsibility – Records and Reports.
Page 4 - Ramona J. Schuenemeyer


         Unsupported ASAP Adjustments Involving FFY 2005 Appropriations
           Date         FFY Increase Decrease         Justification Provided
    February 9, 2005   2002         $1
                       2003                $30,750 To reflect correct spending
                       2004               $111,304     for FFYs 2002-2005
                       2005   $142,053
    February 3, 2006   2004               $128,377 Adjustment for Final 4513
                       2005   $128,377                        Report
    February 27, 2007  2005                $92,890
                       2006    $92,890               Adjustment for 4513 2nd
                       2006     $3,350                    Quarter Report
                       2007                 $3,350
     Unsupported Adjustments $366,671     $366,671

Given NM-DDS’ recurring use of unsupported adjustments to move funds to/from one
fiscal year to another, it would have been necessary to reconstruct cash draws dating
back several fiscal years to the present date to determine whether cash draws were
appropriate. We did not expand the scope of our review of cash draws since we found
no indication that the NM-DDS used the Federal funds for disbursements other than
those allowable for reimbursement by SSA.

The transfer of funds between accounts could allow for an inappropriate use of one
FFYs appropriation to be used to pay the expenses of another FFY. Federal statute
states that the balance of an appropriation or fund limited for obligation to a definite
period is available only for payment of expenses properly incurred during the period of
availability or to complete contracts properly made within that period of availability and
obligated. 7 A lack of proper oversight of DDS cash management activities places
Federal funds at-risk of mismanagement.

Through the end of FFY 2007, controls were not in place to prevent DDSs from making
accounting adjustments that transferred funds between fiscal years. To better monitor
the draw down of funds, effective October 1, 2007, SSA disabled ASAP’s Book Entry
Adjustment feature that previously allowed the DDSs to make these transfers. When
and if such adjustments are necessary, the DDSs should contact the applicable
Regional Office and request SSA enable the Book Entry function. With this request, the
DDS will need to provide the reason this adjustment is necessary and attach any
supporting documentation (identifying the correct account year), such as signed
authorizations for purchases, rentals, and travel. 8




7
    31 U.S.C. § 1502(a).
8
    DDSAL-742, dated September 26, 2007.
Page 5 - Ramona J. Schuenemeyer


DDS Employee Travel

NM-DDS could not always provide evidence or documentation to indicate the Dallas
Regional Office had approved employee travel, when required. 9 Specifically, we found
no documentation to indicate SSA officials provided prior written approval for NM-DDS
employees to incur travel expenses to attend the National Association of Disability
Examiners meeting. Before attending this meeting, the NM-DDS should have provided
the Regional Office with the following information:

•     location of conference, meeting, training, etc., and name of the sponsoring agency;
•     job titles of the DDS attendees and estimated travel costs; and
•     documentation on subject matter relevance in terms of contributions/effectiveness
      for disability staff.

Although amounts expended for this travel were small in comparison to the SSA funds
NM-DDS received, the oversight and control of DDS travel costs is an issue that
requires management’s attention.

GENERAL SECURITY CONTROLS

As part of our audit, we performed a limited assessment of the general security controls
environment at NM-DDS. Overall, the general security controls were adequate.
However, we identified areas where improvements can be made in (1) safeguarding
personally identifiable information (PII) and (2) segregation of duties to ensure proper
internal controls over the disbursements process.

Safeguarding of PII

NM-DDS disclosed claimants’ PII to vendors. During the disability determination
process, NM-DDS purchases medical services that include consultative examinations
and medical evidence of record. Our review revealed that the NM-DDS provided
medical service vendors with applicants’ PII including full name and Social Security
number (SSN). Although we have no reason to believe this information was abused,
this practice could result in the accidental disclosure of claimants’ PII. Federal guidance
dictates that agencies reduce their current holdings of all PII to the minimum necessary
for the proper performance of a documented agency function. 10 Agencies must also
review their use of SSNs in agency systems and programs to identify instances in which
collection or use of the SSN is superfluous. 11



9
    SSA, POMS, DI 39524.001(C)(2), DDS Travel.
10
     OMB Memorandum M-07-16, Attachment 1 § B.1.a.
11
     OMB Memorandum M-07-16, Attachment 1 § B.2.a.
Page 6 - Ramona J. Schuenemeyer


On October 5, 2007, SSA’s Office of Disability Determinations informed regional offices
that DDSs should review their processes to eliminate the use of the SSN on
correspondence where possible. NM-DDS staff informed us that they have begun to
remove SSNs from consultative examination and medical evidence of record
documents. NM-DDS is moving from paper documents to electronic documents. The
bar coding on the electronic documents will eliminate the need for an SSN to match the
documents to the applicable file.

Segregation of Duties

NM-DDS did not maintain adequate segregation of duties to ensure proper internal
controls over the disbursement process. DDS management has overall responsibility
for the security of its site and compliance with established security policies and
procedures. One of those responsibilities is to ensure that separation of duties exists
among DDS personnel so no one individual has full range of access to all processing
transactions. 12 The same individual recorded invoices when they were received at
NM-DDS, initiated the purchase orders, maintained the purchase order files or
documentation, approved the payment process for forwarding to NM-DVR, received the
checks back from NM-DVR and mailed the checks. NM-DDS management had not
implemented compensating controls and acknowledged this was an internal control
weakness that increased the opportunity for fraud to occur or go undetected. In
May 2008, NM-DDS submitted a proposal to address this internal control weakness.

CONCLUSION AND RECOMMENDATIONS
Because NM-DVR did not maintain adequate detailed accounting records to support
NM-DDS' FFY 2006 administrative costs, we were unable to determine whether
disbursements were allowable and properly allocated.

Regarding FFY 2005 administrative costs, amounts charged to SSA were generally
allowable and allocable. The NM-DVR made unsupported adjustments to move funds
from one FFY to another, and the NM-DDS could not always provide documentation
that indicated the Dallas Regional Office provided prior approval for DDS employee
travel, when required. We also identified general security control weaknesses that
required attention. To address the conditions noted in this report, we recommend SSA:

1. Ensure NM-DDS maintains adequate accounting records to support disbursements
   reported on Form SSA-4513 and retain these records until a Federal audit has been
   performed and all findings have been resolved.

2. Require that DDSs in the Dallas Region obtain approval to transfer funds between
   ASAP accounts.




12
     DDSAL-577, Section II, dated August 6, 2001.
Page 7 - Ramona J. Schuenemeyer


3. Ensure that NM-DDS adheres to the POMS requirements for out-of-State travel.

4. Work with NM-DDS to ensure the general security controls weaknesses are
   addressed.

AGENCY AND NM-DVR COMMENTS
SSA and NM-DVR agreed with our recommendations. See Appendices C and D,
respectively, for the full text of SSA’s and NM-DVR’s comments.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – New Mexico Division of Vocational Rehabilitation Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
Act        Social Security Act
ASAP       Automated Standard Application for Payments
C.F.R.     Code of Federal Regulations
DDS        Disability Determination Services
DDSAL      Disability Determination Services Administrators’ Letters
DI         Disability Insurance
FFY        Federal Fiscal Year
MIP        New Mexico Micro Information Products
NM-DDS     New Mexico Disability Determination Services
NM-DVR     New Mexico Division of Vocational Rehabilitation
OMB        Office of Management and Budget
PII        Personally Identifiable Information
POMS       Program Operations Manual System
SSA        Social Security Administration
SSA-4513   State Agency Report of Obligations for SSA Disability Programs
SSI        Supplemental Security Income
SSN        Social Security Number
Treasury   Department of the Treasury
U.S.C.     United States Code
                                                                      Appendix B

Scope and Methodology
SCOPE
To achieve our objectives, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to administrative costs claimed by the New Mexico Disability
    Determination Services (NM-DDS) and the draw down of SSA funds.

•   Interviewed staff and officials at NM-DDS, New Mexico Division of Vocational
    Rehabilitation (NM-DVR), and SSA’s Dallas Regional Office.

•   Evaluated and tested internal controls regarding accounting, financial reporting, and
    cash management activities.

•   Reconciled State accounting records to the administrative costs reported by
    NM-DDS on the State Agency Report of Obligations for SSA Disability Programs
    (SSA-4513) for Federal Fiscal Year (FFY) 2005.

•   Examined specific administrative expenditures (Personnel, Medical, and All Other
    Nonpersonnel Costs) incurred and claimed by NM-DDS for FFY 2005 on the
    SSA-4513. We used statistical sampling to select expenditures to test for
    documentation of the Medical, Personnel, and All Other Nonpersonnel Costs.

•   Examined the process and conducted analysis of Indirect Costs claimed by NM-DDS
    for FFY 2005.

•   Compared the amount of SSA funds drawn to support NM-DDS operations to the
    cost records as reported on SSA-4513.

We determined the data provided by NM-DDS for FFY 2005 used in our audit were
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling them to the costs claimed on the SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files. We
performed our audit work at NM-DDS in Albuquerque, New Mexico, and NM-DVR
offices in Santa Fe, New Mexico. We conducted fieldwork from December 2007
through April 2008. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable




                                          B-1
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

METHODOLOGY
Our sampling methodology encompassed the three general areas of costs reported on
the SSA-4513 (1) Personnel, (2) Medical, and (3) All Other Nonpersonnel Costs. We
obtained electronic records that supported the Personnel, Medical, and All Other
Nonpersonnel Costs for FFY 2005 for use in sampling. These records were obtained
from the New Mexico Micro Information Products (MIP) system and used by NM-DDS to
prepare the Form SSA-4513. MIP was replaced by the Statewide Human Resource,
Accounting, and Management Reporting system in July 2006. For indirect costs, we
reviewed the applicable rates and analyzed the calculations for the cost reported on the
Form SSA-4513. We obtained medical service cost records from the MIP system. We
tested and compared the consultative examination fees assigned by the NM-DDS fee
schedule and recorded in the General Ledger to other State and Federal fee schedules
for FFY 2005.

Personnel Costs

We randomly selected 1 pay period in FFY 2005. We then selected a random sample
of 50 regular employees. We tested NM-DDS payroll records to ensure it correctly paid
employees and adequately documented these payments. For medical consultant costs,
we selected 1 pay period in FFY 2005. We reviewed all the consultants in that pay
period and verified that each was paid in accordance with approved contracts.

Medical Costs

We sampled 50 items from Medical Costs for FFY 2005 using a random sample of
Medical Costs based on the proportion of medical evidence of record and consultative
examination costs to total Medical Costs claimed. Additionally, we conducted analytical
work to determine whether NM-DDS rates exceeded the highest rate paid by Federal or
other State agencies for the same or similar types of service.

Indirect Costs

Indirect Costs for NM-DDS are the applicable rate times the base. The base is total
direct costs less items of equipment, alterations, renovations and flow-through funds
and that portion of each sub-award in excess of $25,000 per year. Additionally, fringe
benefits for terminal leave for employees will not be charged as direct cost.




                                         B-2
All Other Nonpersonnel Costs

We selected a stratified random sample of 50 items from FFY 2005 from the All Other
Nonpersonnel Costs category (except for occupancy). Before selecting the sample
items, we stratified the transactions in the nine cost categories. We then distributed the
50 sample items for the year between categories based on the proportional distribution
of the costs. We conducted a 100-percent review of NM-DDS occupancy costs for
FY 2005.




                                          B-3
                                                                         Appendix C

Agency Comments
September 16, 2008
Dallas Reply: Signed Draft Report (A-06-08-18034) -- NM DDS

Pat,

We appreciate the opportunity to comment on this draft audit report. We agree with the
recommendations and are working with the DDS to implement the necessary changes.
We would like to thank the OIG Audit staff in the Dallas Region for the excellent
manner in which they were able to organize and perform this audit. We appreciate
their efforts to keep all parties informed of their progress during the course of the audit.

Our responses to the recommendations contained in the narrative report are as
follows:

1. Ensure NM-DDS maintains adequate accounting records to support disbursements
   reported on Form SSA-4513, and retain these records until a Federal audit has been
   performed and all findings have been resolved.

   We concur with this recommendation. The NM-DDS Division of Vocational
   Rehabilitation (DVR) is aware of this requirement. Due to implementation of a new
   State accounting system in July 2006, it was difficult for DVR to provide detailed
   accounting records. These records should be available for future years under the
   current accounting system.

2. Require that DDSs in the Dallas Region obtain approval to transfer funds between
   the Department of Treasury’s Automated Standard Application for Payments system
   (ASAP) accounts.

   We concur with the recommendation. Effective October 1, 2007 the DDSs are
   required to obtain SSA approval to make ASAP adjustments between fiscal years.
   The DDS is aware of this new requirement.

3. Ensure NM-DDS adheres to the POMS requirements for out-of-State travel.

   We concur with the recommendation. The DDS is aware of the requirement to
   obtain SSA approval for out-of-state travel.

4. Work with NM-DDS to ensure the general security controls weaknesses are
   addressed.




                                                C-1
   We concur with the recommendation. The DDS has addressed the security controls
   weaknesses by making the following changes: 1) effective April, 2008 removed
   SSNs from consultative examination and medical evidence of record documents;
   and 2) effective April 2008 initiated a separation of duties for approving and mailing
   MER payment checks.

If members of your staff have any questions, please have them call Janice Grann at
214-767-4281 in Management and Operations Support, Center for Disability.

Ramona




                                           C-2
                                    Appendix D

New Mexico Division of Vocational
Rehabilitation Comments
D-1
D-2
                                                                        Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division, (214) 767-6620

   Jason Arrington, Audit Manager, (214) 767-1321

Acknowledgments

In addition to those named above:

   Teresa S. Williams, Senior Auditor
   Ashley Moore, Auditor
   Wanda Renteria, Auditor
   Erica Estrada, Senior Analyst
   Kim Beauchamp, Writer/Editor
   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-08-18034.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
